No. 20-1573
IN THE

VIKING RIVER CRUISES, INC.,
v.
ANGIE MORIANA,

Petitioner,

Respondent.
On Petition for a Writ of Certiorari
to the California Court of Appeal
BRIEF OF RETAIL LITIGATION CENTER, INC.
AS AMICUS CURIAE IN SUPPORT OF
PETITIONER
Deborah White
RETAIL LITIGATION
CENTER, INC.
99 M Street, SE
Washington, DC 20003

Eric F. Citron
Counsel of Record
Erica Oleszczuk Evans
GOLDSTEIN & RUSSELL, P.C
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
ec@goldsteinrussell.com

TABLE OF CONTENTS
TABLE OF AUTHORITIES ........................................ ii
INTEREST OF AMICUS CURIAE ............................. 1
SUMMARY OF ARGUMENT ..................................... 4
ARGUMENT ................................................................ 6
I.

The Status Quo Creates Intolerable
Inconsistency Across Jurisdictions................... 6

II. Additional Delay May Frustrate Effective
Review Of The Iskanian Rule ......................... 10
III. The Iskanian Rule Is Plainly Wrong .............. 14
CONCLUSION .......................................................... 19

ii
TABLE OF AUTHORITIES
Cases
AT&T Mobility LLC v. Concepcion,
563 U.S. 333 (2011) ........................................ passim
Contreras v. Superior Ct. of L.A. Cnty.,
275 Cal. Rptr. 3d 741 (Ct. App. 2021) ................... 12
Correia v. NB Baker Elec., Inc.,
244 Cal. Rptr. 3d 177 (Ct. App. 2019) ..................... 9
DirecTV, Inc. v. Imburgia,
577 U.S. 47 (2015) .................................................. 11
EEOC v. Waffle House, Inc.,
534 U.S. 279 (2002) ................................................ 15
Epic Sys. Corp. v. Lewis,
138 S. Ct. 1612 (2018) .................................... passim
Iskanian v. CLS Transp. L.A., LLC,
327 P.3d 129 (Cal. 2014) ................................ passim
Kirtsaeng v. John Wiley & Sons, Inc.,
568 U.S. 519 (2013) .................................................. 1
Lamps Plus, Inc., v. Varela,
139 S. Ct. 1407 (2019) .................................. 8, 11, 17
Magadia v. Wal-Mart Assocs.,
--- F.3d ----, 2021 WL 2176584
(9th Cir. 2021) .................................................. 13, 15
Preston v. Ferrer,
552 U.S. 346 (2008) ................................................ 17
Rivas v. Coverall N. Am., Inc.,
842 Fed. Appx. 55 (9th Cir. 2021).................. 7, 8, 10
Rivera v. UHS of Del., Inc.,
705 Fed. Appx. 593 (9th Cir. 2017)........................ 11
Rosales v. Uber Techs., Inc.,
278 Cal. Rptr. 3d 285 (Ct. App. 2021) ................... 12

iii
Sakkab v. Luxottica Retail N. Am., Inc.,
803 F.3d 425 (9th Cir. 2015) .................... 7, 8, 10, 11
South Dakota v. Wayfair, Inc.,
138 S. Ct. 2080 (2018) .............................................. 1
Valdez v. Terminix Int’l Co.,
681 Fed. Appx. 592 (9th Cir. 2017).......................... 9
Rules
Sup. Ct. R. 37.6 ............................................................ 1
Other Authorities
Braden Campbell, Calif. Private AG Law:
Coming to a State Near You?, Law360
(Feb. 21, 2020), https://www.law360.com/
articles/1245815 ....................................................... 3

INTEREST OF AMICUS CURIAE1
The Retail Litigation Center, Inc. (“RLC”) is the
only public policy organization dedicated to representing the retail industry in the judiciary. The RLC’s
members include many of the country’s largest and
most innovative retailers. They employ millions of
workers throughout the United States, provide goods
and services to tens of millions of consumers, and account for tens of billions of dollars in annual sales. The
RLC seeks to provide courts with retail-industry perspectives on important legal issues impacting its members, and to highlight the potential industry-wide consequences of significant pending cases. Since its
founding in 2010, the RLC has participated as an amicus in more than 150 judicial proceedings of importance to retailers. Its amicus briefs have been favorably cited by multiple courts, including this Court.
See, e.g., South Dakota v. Wayfair, Inc., 138 S. Ct.
2080, 2097 (2018); Kirtsaeng v. John Wiley & Sons,
Inc., 568 U.S. 519, 542 (2013).
RLC members have a strong interest in seeing the
Court take up the question presented in this petition.
The California Supreme Court’s decision in Iskanian
v. CLS Transportation Los Angeles, LLC, 327 P.3d 129
(Cal. 2014) prevents employers and employees from
agreeing that all of their potential claims against each
other should be resolved through bilateral arbitration;

Counsel for all parties have consented to the filing of this
brief. Pursuant to this Court’s Rule 37.6, amicus states that this
brief was not authored in whole or in part by counsel for any
party, and that no person or entity other than amicus, its
members, or its counsel made a monetary contribution intended
to fund the preparation or submission of this brief.
1

2
employees are deprived of the power to make such an
agreement with respect to potential claims under the
California Private Attorneys General Act (“PAGA”), no
matter how much they might want to trade the right
to bring that representative claim for other benefits.
As this case vividly demonstrates, it does not matter
how avowedly the parties may prefer arbitration.
Here, the contractual provision waiving court claims
in favor of arbitration described PAGA actions with
particularity and included a checkbox allowing the
employee to opt out of the arbitration agreement at her
discretion, and yet it made no difference.
California has, in effect, placed its own labor-law
claims outside the scope of the Federal Arbitration Act
(“FAA”) by simply designating a part of the recovery
as the property of the State. And that is a huge proportion of national labor-law claims: Current U.S. Bureau of Labor Statistics figures indicate that over 11%
of all nonfarm employees in the United States are in
California. That means that, when it comes to one of
the most critical areas of law for retailers in the Nation’s most economically critical State, there might as
well not be an FAA at all.
The Court should not permit this divergence between California and the rest of the States to remain
in place. In practice, the situation is no different from
one in which there is a deep and entrenched circuit
conflict: Nationwide firms like the RLC’s members
must learn to accommodate themselves to one set of
rules in one jurisdiction, and a different set in another,
with no end in sight, despite an on-point federal statute prescribing a single nationwide approach to enforce freely chosen arbitration agreements. And as the
petitioner ably explains, the Iskanian rule is in the

3
teeth of this Court’s decisions in Epic Systems Corp. v.
Lewis, 138 S. Ct. 1612 (2018), and AT&T Mobility LLC
v. Concepcion, 563 U.S. 333 (2011), precisely because
it exempts a set of representative claims from the force
of the FAA even though those claims are in effect indistinguishable from the other “class” or “collective”
claims that this Court has prevented states from placing “off limits” when it comes to agreeing to “individualized arbitration.” Absent this Court’s intervention,
the only way a uniform, nationwide approach to individualized arbitration agreements will emerge is if
other States follow California’s lead and begin ignoring this Court’s precedents as well.2
Accordingly, the Court should not delay review on
this issue any longer. Although the California Court
of Appeal felt compelled to issue an opinion in this case
in light of Epic—and to explicitly flag its powerlessness to diverge from Iskanian absent a squarely applicable holding from either this Court or the California
Supreme Court, see Pet. App. 5 n.1—the on-theground reality is that fewer and fewer cases will raise
this issue in published opinions going forward. The
California Supreme Court has shown no interest in reconsidering Iskanian, and the California courts of appeal are thus increasingly likely to simply slough these
cases off without any formal opinion. Meanwhile, companies like the RLC’s members will have an ever-decreasing incentive to even try to bring these cases forward, facing the certainty of a loss at every level in the
This is not an idle concern: At least five States have recently considered adopting PAGA-like statutes that mirror the
California model. Braden Campbell, Calif. Private AG Law:
Coming to a State Near You?, Law360 (Feb. 21, 2020),
https://www.law360.com/articles/1245815.
2

4
California court system, and the uncertainty that the
Court will ever grant on an issue it has denied before—
no matter how clearly its own, evolving precedents signal that California has it wrong.
This case, which petitioner was no doubt willing
to press through the California court system because
of this Court’s new decision in Epic, thus represents
an excellent vehicle for the question presented. Amicus thus strongly urges the Court to grant this petition, reverse the Iskanian rule, and restore nationwide
consistency to the rule that the FAA protects the
rights of both employers and employees to affirmatively choose bilateral arbitration over other means of
resolving their disputes.
SUMMARY OF ARGUMENT
This brief includes three central points.
First, we explain that the status quo—with California alone permitted to insulate representative
claims from bilateral arbitration agreements—creates
intolerable inconsistency across different jurisdictions
of the precise kind this Court routinely addresses
through a petition for certiorari. This inconsistency is
unfair to businesses (and employees) located in California vis-à-vis their competitors in other States, and
it is inconsistent with the nationwide policy Congress
adopted in the FAA. And, indeed, because of different
approaches in the state and federal courts in California, the status quo causes the exact same arbitration
agreement between the same two parties to have different consequences depending on where suit is
brought. This is the kind of tension within the application of federal law that is appropriate for this Court
to resolve.

5
Second, we emphasize that, if the Court is interested in reviewing the Iskanian rule—and it should
be—then the time to do so is now. The settlement dynamics created by California’s carve out from the FAA
for PAGA claims means that fewer and fewer vehicles
will reach this Court—particularly as companies begin
to believe that this Court will not grant review at the
end of the line. And the vehicles that do reach this
Court are likely to present esoteric twists on the question presented, rather than the direct challenge to Iskanian that is well-presented here. Accordingly, the
Court should not delay any further in considering
whether the California courts’ approach to arbitration
for PAGA claims conflicts with this Court’s precedents
and the congressional policy embodied in the FAA.
Third, and finally, we explain that California’s approach is clearly incorrect. It violates not only this
Court’s recent precedents like Concepcion, but even
older cases that stand for the relatively uncontroversial proposition that States cannot exempt particular
kinds of claims from bilateral arbitration agreements
without running afoul of the FAA. Nor is there any
substance to the excuse that these claims partially “belong” to the State: PAGA leaves the claim entirely in
the hands of the employee and is indistinguishable in
practice from a statute allowing employees to buy a
“Get Out of Your Bilateral Arbitration Agreement
Free” card at the price of 75 percent of their winnings.
The tension between Iskanian and this Court’s cases
is palpable, and ultimately requires resolution. And
so this Court should grant certiorari, and resolve that
tension now in favor of its own well-settled approach.

6
ARGUMENT
I.

The Status Quo Creates Intolerable
Inconsistency Across Jurisdictions.

Nationwide companies like the national retailers
who are the RLC’s members depend on nationwide
rules to regularize their business practices across jurisdictions. To be sure, not every question has a nationwide answer: Some questions, including some
substantive employment law issues, are set by state
laws that vary from one location to the next. But that
is not how congressional policymaking is supposed to
play out. When Congress decides to create a single national regime for something like arbitration—and does
so with expressly preemptive language like the FAA
contains—businesses have every right and every reason to believe that the chosen policy will prevail in
every jurisdiction where they operate. Indeed, the Supremacy Clause demands it.
Typically, the main obstacle to that result is a lack
of uniformity in the courts that interpret a federal law.
For example, if the federal courts of appeals do not interpret a statute the same way—or do not resolve tensions between multiple statutes the same way—then
the public policy outcome created by the very same
congressional actions may be different or even opposite in different parts of the country. See, e.g., Epic
Sys. Corp. v. Lewis, 138 S. Ct. 1612, 1620-21 (2018)
(describing circuit disagreement and nationwide “confusion” that precipitated grant of certiorari).
That kind of disagreement creates at least two related problems that this Court exists in part to resolve.
The first—which is especially important in the business context—is the prospect of interfirm unfairness:

7
If the rule in the Fourth Circuit is good for certain
businesses, and the opposite approach in the Ninth
Circuit is bad for them, then local firms subject to the
Fourth Circuit’s rule will have a leg up on their competitors in the Ninth Circuit, and vice versa. The second—which can be particularly problematic for nationwide firms—is confusion: The result of a certain
business practice may be one thing in one jurisdiction
and another elsewhere, even though that practice
should ostensibly be governed everywhere by the same
federal statute. This is, of course, why this Court looks
primarily to the presence of a disagreement among the
circuits in deciding whether to grant a petition for certiorari—because resolving these disagreements and
restoring a uniform meaning to nationwide congressional policies is the right approach to the interpretation of national legislation, and something only this
Court can do.
To be sure, there is no prospect of a true “circuit
split” arising over the rule under Iskanian v. CLS
Transportation Los Angeles, LLC, 327 P.3d 129 (Cal.
2014) and the application of the FAA to California’s
PAGA. But that is only because PAGA is an esoteric
statute and both the California Supreme Court and
Ninth Circuit have already erroneously decided to uphold the Iskanian rule notwithstanding Epic and
AT&T Mobility LLC v. Concepcion, 563 U.S. 333
(2011). See Pet. App. 5 (California Court of Appeal
concluding that Iskanian “remains good law” after
Epic); id. at 1 (California Supreme Court denying review); Sakkab v. Luxottica Retail N. Am., Inc., 803
F.3d 425, 439 (9th Cir. 2015) (“[T]he Iskanian rule
does not conflict with the FAA[.]”); Rivas v. Coverall
N. Am., Inc., 842 Fed. Appx. 55, 56-57 (9th Cir. 2021)

8
(holding that Epic did not “expand[] upon Concepcion
in such a way as to abrogate Sakkab”).
These rules are entrenched and are unlikely to
change, no matter how clearly this Court’s existing
cases may signal that California’s approach to PAGA
is a poor fit for its FAA jurisprudence, unless this
Court affirmatively steps in. For example, in one recent case, the Ninth Circuit rejected a motion to compel arbitration because of that court’s pre-existing
precedent, while Judge Bumatay concurred to stress
that “the writing is on the wall that the Court disfavors our approach.” Rivas, 842 Fed. Appx. at 58
(Bumatay, J., concurring); see also id. at 59 (calling
Sakkab “good—but severely hobbled—law”). Likewise, the California Court of Appeal in this very case
seemed to recognize that the Iskanian rule is skating
on thin ice given that this Court’s cases appear arrayed against it. See Pet. App. 5 n.1. And yet, like the
en banc Ninth Circuit, the California Supreme Court
appears uninterested in reconciling its approach with
what this Court has said about state circumvention of
bilateral arbitration agreements in Concepcion, Epic,
and Lamps Plus, Inc., v. Varela, 139 S. Ct. 1407 (2019).
The rule that applies to PAGA is therefore set, and not
susceptible to any kind of disagreement among the
lower courts—even if judges on those courts (correctly)
recognize that the rule is wrong.
This is not to say that there is not some important
confusion created by the Iskanian rule. For example,
while the Ninth Circuit and California Supreme Court
apparently agree that PAGA claims cannot be forced
into bilateral arbitration, they disagree about whether
a representative PAGA claim must remain in court (as
the state courts have held) or are instead eligible for

9
representative arbitration (as the federal courts hold).
See, e.g., Correia v. NB Baker Elec., Inc., 244 Cal. Rptr.
3d 177, 189-90 (Ct. App. 2019) (holding that, “[w]ithout the state’s consent, a predispute agreement between an employee and an employer cannot be the basis for compelling arbitration of a representative
PAGA claim because the state is the owner of the
claim,” and identifying contrary conclusions in local
federal courts); compare Valdez v. Terminix Int’l Co.,
681 Fed. Appx. 592, 594 (9th Cir. 2017) (reaching opposite conclusion and holding that “PAGA claims are
eligible for arbitration”). Accordingly, even within
California, businesses face uncertainty about what
kind of agreement they are making with their employees: No matter what the contracting parties want,
their arbitration agreements are chameleons whose
colors will only be determined once the forum chosen
for a future PAGA claim is known.
Meanwhile, although a traditional circuit split
over the Iskanian rule may be impossible, the status
quo is not at all dissimilar from the kind of disagreement this Court ordinarily resolves. As it stands, it is
possible for employers and employees in essentially
every other State in the Union to take the FAA at face
value and agree that any dispute that arises between
them will head to bilateral arbitration rather than being pursued as a class or representative matter (or, really, any kind of matter) in court. But that isn’t the
rule in California. There, and only there, the same arbitration agreement—one that the employee freely
chose in the clearest possible way and that expressly
forecloses the litigation of representative “private attorney general” claims in court—will have no effect.
This means retailers with employees in California do

10
not benefit from the federal policy favoring arbitration
agreements under the FAA in the same way as their
competitors located exclusively in other States. And it
likewise means that, despite the FAA’s guarantee of
uniformity, nationwide retailers cannot count on the
same outcome from the same agreement if an employee’s complaint arises in California rather than
New York. Indeed, as explained above, they cannot
even count on the same agreement between the same
two parties meaning the same thing in state and federal court. And that is just the kind of unfairness and
inconsistency that this Court should grant certiorari
to correct.
II. Additional Delay May Frustrate Effective
Review Of The Iskanian Rule.
As the petition makes clear, there have been very
strong arguments against the Iskanian rule dating
back to this Court’s decision a decade ago in Concepcion. See Pet. 21-23. Indeed, federal judges have given
powerful voice to those same arguments, including
Judge N.R. Smith in Sakkab, see 803 F.3d at 443 (N.R.
Smith, J., dissenting), and more recently Judge Bumatay in Rivas. Until recently, the obvious tension Judge
Bumatay identified in Rivas has given companies facing an ever-surging wave of PAGA demands some
hope that either the California Supreme Court or the
Ninth Circuit might see the error in their approaches
and reconsider in light of this Court’s repeated precedents—every one of which has underscored Concepcion’s firm insistence that states not frustrate parties’
access to bilateral arbitration agreed to by the parties
ex ante. And, to this point, that has kept a steady
stream of potential PAGA vehicles before this Court.

11
But the longer this Court makes that river run,
the greater the chance that it will eventually run dry.
In this regard, each unsuccessful effort to encourage a
critical self-examination by the state and federal
courts in California, and to seek review of their obstinacy in this Court, breeds more and more skepticism
that the next effort will prevail (while simultaneously
breeding more and more obstinacy in the California
state and federal courts). After this Court denied review in Iskanian and the divided Ninth Circuit
adopted its rule in Sakkab, both courts were asked to
reconsider after DirecTV, Inc. v. Imburgia, 577 U.S. 47
(2015). Both declined in the most summary fashion.
See, e.g., Rivera v. UHS of Del., Inc., 705 Fed. Appx.
593 (9th Cir. 2017) (declining to reconsider Sakkab in
two-paragraph, unpublished decision). And the same
pattern has now been repeated with Epic and Lamps
Plus. If this latest effort to obtain this Court’s review
comes to naught, the Court can be confident that the
lower courts will see no reason to change their ways,
and the companies facing those courts as hurdles will
be appropriately discouraged from trying the same
tactic again and again.
That is particularly so because running doomed
motions to compel arbitration up the flagpole in the
unfriendly California courts—the price of admission
for an uncertain certiorari petition in this Court—is a
costly proposition. It requires a motion and reply in
the trial court, an appeal brief and reply in the California Court of Appeal, and a petition to the California
Supreme Court, all of which must be carefully litigated
to avoid creating vehicle problems or independent and
adequate state law grounds for denial. All the while,
litigation on the underlying claims is typically moving

12
forward in the trial court, requiring companies to hire
an entirely different set of attorneys to pursue a motion to compel all the way up the appellate court chain.
Firms are thus unlikely to prosecute motions to compel for the mere chance to try a recreational petition
for certiorari. Instead, if they are likely to bring any
such motions at all (an increasingly uncertain proposition), they are more likely to litigate cases in which
there are esoteric issues or special arguments for why
a motion to compel is appropriate notwithstanding
PAGA and the Iskanian rule—cases that will not
squarely raise the question about Iskanian this Court
needs to decide.3 Ideal vehicles like this one—where
“[t]here is just a single claim …, it seeks representational relief in direct contravention of the clear terms
of the arbitration agreement, and [the employee] disclaimed her ability to bring PAGA representational
claims by name in a provision that gave her an express
opportunity to opt out,” Pet. 17, are certain to become
fewer and further between.
And that is not all: The risk of disappearing vehicles increases when one recognizes that the whole
For example, firms like Uber and Lyft have recently and
unsuccessfully sought to enforce their arbitration agreements by
arguing that those agreements require an arbitrator to decide the
threshold issue of whether the complainant is even a PAGA-eligible “aggrieved employee” rather than an independent contractor in the first place. See, e.g., Rosales v. Uber Techs., Inc., 278
Cal. Rptr. 3d 285 (Ct. App. 2021); Contreras v. Superior Ct. of L.A.
Cnty., 275 Cal. Rptr. 3d 741, 748-52 (Ct. App. 2021) (collecting
other precedents). It would be counterproductive for this Court’s
first encounter with the Iskanian rule to occur in a case where
the parties and their briefing are fixated on such a sub-sublevel
issue. But more and more vehicles will take this form as litigants
become convinced that Iskanian itself is an immovable object.
3

13
point of the PAGA demand that plaintiffs’ lawyers are
increasingly leveling in these cases is usually to extract a favorable settlement at the earliest stages of
litigation. In that gambit, the cost of prosecuting the
motion to compel all the way up to this Court functions
as just one more cost imposed upon the defendant by
a PAGA claim that should have been foreclosed by the
plaintiff’s ex ante election of bilateral arbitration. And
these costs are layered on top of the already astronomical statutory penalties that PAGA threatens, often in
connection with “violations” that would otherwise
have marginal if any monetary value to the “aggrieved” employees. The resulting pressure to settle
before any motion to compel arbitration becomes a vehicle for this Court to entertain is enormous.
Indeed, just consider the decision confronting employers from a decision-theory perspective. On the one
hand, although the odds of losing are uncertain, the
stakes of litigating a representative PAGA claim to
judgment are fairly catastrophic because of the potential for massively multiplied statutory penalties. See,
e.g., Magadia v. Wal-Mart Assocs., --- F.3d ----, 2021
WL 2176584, at *2 (9th Cir. 2021) (noting that district
court awarded $100 million in damages based on two
alleged, technical errors on employee wage statements
that court of appeals eventually found to comply with
California law). Conversely, the costs associated with
litigating a motion to compel all the way to this Court
are certain, while the apparent odds of success are already low and seem to be declining. Meanwhile, settlement is particularly attractive to plaintiffs’ attorneys (and employers) because the parties can agree to
structure the settlement fund to be primarily aimed at
(otherwise class-action-ineligible) non-PAGA claims,

14
so that more of the money finds its way to employees
rather than the State. Under those circumstances,
economists would predict with confidence that businesses will usually hedge against the long-tail risk of
a huge judgment and settle well before they sink unnecessary costs into litigating an unlikely, multi-stage
motion to compel and petition for certiorari. And the
RLC’s members will regretfully tell you that those
economists are right.
The upshot is that, if this Court denies review
here, fewer and fewer motions to compel arbitration of
PAGA claims will be brought at all, let alone brought
all the way to this Court for review. If the Court believes the Iskanian rule will ever merit its consideration, the time for that consideration is now.
III. The Iskanian Rule Is Plainly Wrong.
The arguments that Iskanian conflicts with Concepcion and Epic are well developed in the petition and
in the opinions from respected federal judges already
cited above. But to these already convincing sources,
amicus must add the following two points.
First, there is nothing but airy fluff underlying the
theory that Iskanian does not conflict with the FAA
because a PAGA claim is essentially “a dispute between an employer and the state” that is litigated by
the employee as an “agent” of California. See Iskanian, 327 P.3d at 151. Critically, the State remains
entirely free to litigate its own claims for violations
against any employer who violates California labor
laws, and in fact, the State declining to do so is a precondition for an employee to litigate a PAGA claim.
But after that, the employee has “a permanent, full assignment of California’s interest” in controlling the

15
suit, which is not true of traditional qui tam actions.
See, e.g., Magadia, 2021 WL 2176584, at *7. There is
thus no sense in which PAGA claims should be regarded as belonging to the State, nor is there any way
that an employee’s bilateral arbitration agreement
could frustrate the State’s interest in actually enforcing its laws. In this regard, the California Supreme
Court seems to have taken the exact opposite of the
right lesson from this Court’s decision in EEOC v. Waffle House, Inc., which holds only that a public enforcer
can prosecute a claim against an employer itself even
when the underlying employee claim is subject to a bilateral arbitration agreement. 534 U.S. 279, 297-98
(2002).
Instead of being a claim belonging to the State and
prosecuted by the employee as a state agent, a PAGA
“claim” is better understood as a procedural mechanism that the State offers to aggrieved employees in
exchange for a bounty: Assuming the State passes on
its own right of first refusal, employees can litigate
claims otherwise belonging to themselves and others as
representative claims so long as they send 75 percent
of the returns to the State. That mechanism offends
the FAA twice over because it allows the employee to
avoid not only their own arbitration agreement but potentially the arbitration agreements of all the other
implicated employees as well, without the direct involvement of any state actor whatsoever. In effect,
PAGA is indistinguishable from a statute passed by
the California legislature allowing employees to buy a
“Get Out of Your Bilateral Arbitration Agreement
Free” card at the price of 75 percent of their winnings.
Such a law would obviously run afoul of the FAA’s prohibition against state-law rules that resist or are

16
designed to frustrate the federal policy in favor of enforcing arbitration agreements. See Epic, 138 S. Ct. at
1622 (explaining that “‘defenses that apply only to arbitration’” or “that target arbitration … by more subtle
methods, such as by ‘interfering with fundamental attributes of arbitration’” are invalid under the FAA) (citation and brackets omitted).
Second, as this case vividly demonstrates, there
should be no illusion that Iskanian does anything
other than invalidate agreements that are expressly
and consciously entered into by parties who have every
intention of choosing bilateral arbitration over representative actions before they know what disputes
might arise and whose leverage might be increased by
the ability to go to court. The agreement here mentioned PAGA by name and included a checkbox where
the employee could choose—at her unilateral election—to opt out of the arbitration provision altogether.
That shows quite clearly that Iskanian rejects bilateral arbitration as such and refuses to give force to the
employee’s ex ante agreement no matter how knowing
and intentional it might be. Indeed, a bilateral arbitration agreement could appear in a bespoke employment contract drafted by a company’s incoming general counsel to govern the terms of her own employment and would still be unenforceable under Iskanian
if that employee eventually discovers that it is in her
interest to bring a representative action rather than
abide by the contract she drafted herself.
To state this result is to acknowledge its inconsistency with Concepcion, Epic, and FAA cases of even
older vintage. Here, there can be no conceit that
PAGA claims should escape an agreement to substitute
representative
litigation
with bilateral

17
arbitration because of a neutral rule of state contract
law, as in Lamps Plus. See 139 S. Ct. at 1414-15. Nor
is there any argument that PAGA claims are exempted by a federal agency’s interpretation of a different federal statute, as in Epic. See 138 S. Ct. at 162930. Indeed, unlike in Concepcion itself, the Iskanian
rule does not even purport to sound in a ground that
“exist[s] at law or in equity for the revocation of any
contract,” FAA §2, such as the unconscionability doctrine. See Concepcion, 563 U.S. at 341 (discussing but
rejecting plaintiffs’ argument that “the Discover Bank
rule” that Concepcion rejected had “its origins in California’s unconscionability doctrine”).4 Instead, this is
just the “straightforward” situation where “state law
prohibits outright the arbitration of a particular type
of claim,” and so “[t]he conflicting rule is displaced by
the FAA.” Id. (citing Preston v. Ferrer, 552 U.S. 346,
353 (2008)). Concepcion’s holding that state laws requiring classwide dispute resolution “stand as an obstacle to the accomplishment of the FAA’s objectives,”
id. at 343, thus helps to clarify the problem with Iskanian, but is not even necessary to invalidate it.
Accordingly, the simple reality is that the Iskanian rule conflicts with the text of the FAA itself,
without the further gloss of obstacle preemption. And
it should not be imagined that this conflict helps the
aggrieved employees who are initiating these
Notably, the Iskanian rule is explicitly rooted in the same
state-law provisions that served as the basis for the Discover
Bank rule invalidated in Concepcion—California Civil Code sections 1668 and 3513. See Iskanian, 327 P.3d at 148-49; Concepcion, 563 U.S. at 340. That both rules derive from the same state
statutes is a particularly strong indication that they must stand
or fall together.
4

18
complaints: Many would recover far more money for
themselves if their lawyers were inclined to focus on
their bilateral claims (which can be brought through
the efficient mechanism of arbitration), rather than
representative claims for PAGA penalties that will
amount to little for the individual plaintiff and lots of
fees for their counsel. If California wants to ensure
that these claims are litigated, it has lots of options
that do not run afoul of Congress’s policy empowering
employers and employees to choose bilateral arbitration ex ante, including hiring more enforcers and
bringing the cases itself or empowering other private
individuals who have not signed such agreements.
But respect for the parties’ agreement and the text of
the FAA prevent the State from merely stamping one
kind of claim with its imprimatur and thereby insulating it from a freely chosen arbitration agreement.
In short, Iskanian is not correct under the text of
the statute or this Court’s precedents, and allowing it
to stand any longer is corrosive. This Court should
grant certiorari now, and reverse.

19
CONCLUSION
The petition for certiorari should be granted.
Respectfully submitted,
Deborah White
RETAIL LITIGATION
CENTER, INC.
99 M Street, SE
Washington, DC 20003

June 14, 2021

Eric F. Citron
Counsel of Record
Erica Oleszczuk Evans
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
ec@goldsteinrussell.com

